 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL


  THOMAS JEFFERSON UNIVERSITY
GENERALLY CLAIMED SELECTED COSTS
 CHARGED DIRECTLY TO DEPARTMENT
  OF HEALTH AND HUMAN SERVICES
   AWARDS IN ACCORDANCE WITH
      FEDERAL REGULATIONS



   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Stephen Virbitsky
                                                Regional Inspector General

                                                         June 2013
                                                       A-03-11-03300
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Thomas Jefferson University

Thomas Jefferson University (Jefferson) is a private health sciences institution located in
Philadelphia, Pennsylvania. For the period October 1, 2008, through September 30, 2010,
Jefferson claimed reimbursement for approximately $63.0 million in costs incurred on 528
grants, contracts, and other agreements (awards) with components of the Department of Health
and Human Services (HHS). In addition to its regular funding through awards, Jefferson
received 52 grants totaling $6.2 million in funding provided by the American Recovery and
Reinvestment Act of 2009, P.L. No. 111-5 (February 17, 2009).

Cost Principles

By accepting HHS awards, Jefferson agreed to comply with regulations governing the use of
Federal funds and to ensure that costs charged to those awards were allowable under the cost
principles established in Office of Management and Budget Circular A-21 (2 CFR part 220).
These cost principles require that, to be allowable, costs must be reasonable, be allocable, and
conform to any exclusions or limitations set forth in the cost principles or sponsored agreements.
In addition, National Institutes of Health (NIH) awards are subject to NIH guidelines.

Award Administration

Jefferson’s Office of Research Administration accepts and administers awards for Jefferson.
Jefferson’s Office of Research Administration also is responsible for monitoring funded awards
for compliance and submission of reports.

Principal investigators are responsible for all programmatic and administrative aspects of an
award, including the conduct of research or other activity described in a proposal for an award.

OBJECTIVE

Our objective was to determine whether selected costs that Jefferson charged to HHS awards
were allowable.

SUMMARY OF FINDINGS

Jefferson generally claimed selected costs charged to HHS awards in accordance with Federal
regulations. In our sample of 100 salary transactions, 99 were allowable, and 1 was unallowable.
In our sample of 104 nonsalary transactions, 85 were allowable, and 19 were either unallowable
or partially unallowable. Using our sample results, we estimated that, of the $5,744,639 covered
by our review, Jefferson charged $96,418 in unallowable costs to HHS awards. As a result of
discussions during our review, Jefferson transferred $3,316 in unallowable direct nonsalary costs



                                                i
from 14 HHS awards to non-Federal funding sources. Accordingly, we reduced the total
questioned costs to $93,102.

Jefferson did not always provide adequate oversight to ensure consistent compliance with
Federal regulations. As a result, Jefferson claimed some unallowable costs.

RECOMMENDATIONS

We recommend that Jefferson:

   •   refund $93,102 to the Federal Government and

   •   enhance oversight of charges to Federal awards to ensure compliance with Federal
       regulations.

THOMAS JEFFERSON UNIVERSITY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Jefferson did not concur with our first recommendation.
Jefferson stated that it had adequately documented the four salary transactions we questioned and
provided additional explanation and documentation with its comments. Jefferson concurred with
our finding for 13 of the nonsalary transactions and provided additional documentation and
explanations for the remaining 7 of the 20 nonsalary transactions questioned in our draft report.
Jefferson also described the action it had taken to address our second recommendation.

Based on our analysis of Jefferson’s comments and additional documentation provided, we
allowed 3 of the 4 salary transactions and 1 of the 20 nonsalary transactions questioned in our
draft report. We revised our findings and our first recommendation accordingly. Jefferson did
not provide complete support for the remaining transactions charged directly to Federal awards.
Therefore, we continue to find 19 nonsalary transactions unallowable.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION.................................................................................................................... 1

          BACKGROUND ...........................................................................................................          1
              Thomas Jefferson University .............................................................................                   1
              Cost Principles ...................................................................................................         1
              Award Administration .......................................................................................                1

          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................                                     1
               Objective ............................................................................................................     1
               Scope ..................................................................................................................   2
               Methodology ......................................................................................................         2

FINDINGS AND RECOMMENDATIONS .......................................................................... 3

          FEDERAL REGULATIONS AND GUIDELINES ...................................................... 4

          UNALLOWABLE COSTS ........................................................................................... 5
              Salary Costs ....................................................................................................... 5
              Nonsalary Costs ................................................................................................. 5

          CONTROLS NOT ALWAYS ADEQUATE ................................................................ 6

          ESTIMATE OF UNALLOWABLE COSTS................................................................. 6

          RECOMMENDATIONS ............................................................................................... 6

          THOMAS JEFFERSON UNIVERSITY COMMENTS ............................................... 6

          OFFICE OF INSPECTOR GENERAL RESPONSE .................................................... 6

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY—NONSALARY TRANSACTIONS

          B: SAMPLE RESULTS AND ESTIMATES—NONSALARY TRANSACTIONS

          C: THOMAS JEFFERSON UNIVERSITY COMMENTS




                                                                     iii
                                             INTRODUCTION

BACKGROUND

Thomas Jefferson University

Thomas Jefferson University (Jefferson) is a private health sciences institution located in
Philadelphia, Pennsylvania. For the period October 1, 2008, through September 30, 2010,
Jefferson claimed reimbursement for approximately $63.0 million in costs incurred on 528
grants, contracts, and other agreements (awards) with components of the Department of Health
and Human Services (HHS). In addition to its regular funding through awards, Jefferson
received 52 grants totaling $6.2 million in funding provided by the American Recovery and
Reinvestment Act of 2009, P.L. No. 111-5 (February 17, 2009).

Cost Principles

HHS grant administration rules require recipients of grant awards to comply with regulations
governing the use of Federal funds and to ensure that costs charged to those awards were
allowable under the applicable cost principles (45 CFR § 74.27(a)). The Federal cost principles
for educational institutions are located in 2 CFR part 220. 1 These cost principles require that, to
be allowable, costs must be reasonable, be allocable, and conform to any exclusions or
limitations set forth in the cost principles or sponsored agreements. In addition, National
Institutes of Health (NIH) awards are subject to NIH guidelines.

Award Administration

Jefferson’s Office of Research Administration accepts and administers awards for Jefferson.
Jefferson’s Office of Research Administration also is responsible for monitoring funded awards
for compliance and submission of reports.

Principal investigators are responsible for all programmatic and administrative aspects of an
award, including the conduct of research or other activity described in a proposal for an award.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether selected costs that Jefferson charged to HHS awards
were allowable.




1
 Office of Management and Budget Circular A-21, Cost Principles for Educational Institutions, was relocated to 2
CFR part 220.


                                                        1
Scope

Our audit covered $3.3 million in salary transactions and $2.4 million in nonsalary transactions
claimed for reimbursement for the period October 1, 2008, through September 30, 2010 (fiscal
years (FY) 2009 and 2010). We limited the audit to awards by organizational components of
HHS. A small number of the transactions in our sample were charged to Recovery Act awards.
We did not evaluate transactions charged to Jefferson’s agreements with other Federal
departments and agencies.

We limited our assessment of internal controls to Jefferson’s policies and procedures for
charging costs to Federal awards. We conducted our fieldwork between February and September
2011 at Jefferson’s offices in Philadelphia, Pennsylvania.

Methodology

To accomplish our objective, we:

    •    reviewed applicable Federal regulations and NIH guidelines;

    •    reviewed Jefferson’s policies and procedures for charging costs to Federal awards;

    •    reviewed Jefferson’s Cost Accounting Standards Board Disclosure Statement (DS-2); 2

    •    obtained all salary transactions for FYs 2009 and 2010 and removed all non-HHS
         transactions, all transactions that were not administrative and clerical positions, and
         transactions less than $100;

    •    evaluated the allowability of salary amounts charged to HHS awards;

    •    obtained a list of nonsalary account codes from Jefferson’s Chart of Accounts that
         potentially included administrative expenses charged directly to Federal programs and
         reviewed all transactions from these accounts for FYs 2009 and 2010;

    •    reviewed and discussed Jefferson’s Chart of Accounts to determine whether nonsalary
         accounts, other than those identified by Jefferson, contained administrative transactions;

    •    removed all non-HHS transactions and transactions less than $5 from the nonsalary
         transactions list to arrive at our audit population of $2,394,846;

    •    selected and determined the allowability of a stratified random sample of 104 nonsalary
         transactions (Appendix A);

2
 Educational institutions that receive aggregate sponsored agreements totaling $25.0 million or more are required to
disclose their cost accounting practices by filing a disclosure statement (DS-2). Jefferson submitted a DS-2 to the
HHS Division of Cost Allocation (DCA) in December 1997; however, we determined that DCA had not reviewed it
because it was waiting for an updated version. In February 2011, as a result of our audit, Jefferson re-submitted its
updated DS-2 to DCA.

                                                         2
      •   selected and determined the allowability of a stratified random sample of 100 salary
          transactions; 3

      •   computed the facilities and administrative (F&A) costs related to these unallowable and
          partially unallowable transactions; and

      •   estimated the unallowable nonsalary amounts that were charged to HHS awards
          (Appendix B).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                             FINDINGS AND RECOMMENDATIONS

Jefferson did not always claim selected costs charged to HHS awards in accordance with Federal
regulations. In our sample of 100 salary transactions, 99 were allowable, and 1 was unallowable.
In our sample of 104 nonsalary transactions, 85 were allowable, and 19 were either unallowable
or partially unallowable. Using our sample results, we estimated that, of the $5,744,639 covered
by our review, Jefferson charged $96,418 in unallowable costs to HHS awards.

                            Unallowable Costs Charged to HHS Awards
                                   During FYs 2009 and 2010
                        Costs                              Estimated Unallowable Amount
               Salary Costs                                           $3,129
               Related Fringe Benefits                                   776
               Related F&A Costs                                       2,129
                Unallowable Salary Costs                               6,034

               Nonsalary Costs 4                                        58,328
               Related F&A Costs                                        32,056
                Unallowable Nonsalary Costs                             90,384

               Subtotal, Unallowable Costs                            $96,418

                  Less: Jefferson adjustment                           (3,316)

                  Total Unallowable Costs                             $93,102


3
 Because we found only a minimal number of unallowable salary transactions in our sample, we questioned actual
unallowable salary costs and fringe benefits and did not estimate a disallowance based on the population.
4
    See Appendix B.

                                                       3
As a result of discussions during our review, Jefferson transferred $3,316 in unallowable direct
nonsalary costs from 14 HHS awards to non-Federal funding sources (see adjustment on the
previous page). Accordingly, we reduced the total questioned costs to $93,102.

Jefferson did not always provide adequate oversight to ensure consistent compliance with
Federal regulations. As a result, Jefferson claimed some unallowable costs.

FEDERAL REGULATIONS AND GUIDELINES

HHS grant administration rules require recipients of grant awards to comply with regulations
governing the use of Federal funds and to ensure that costs charged to those awards are allowable
under its applicable cost principles (45 CFR § 74.27(a)). The Cost Principles for Educational
Institutions require that, to be allowable, costs must be reasonable, be allocable, be treated
consistently, and conform to any exclusions or limitations set forth in the cost principles or
sponsored agreements (2 CFR part 220, App. A, § C.2).

Pursuant to 2 CFR part 220, App. A, § C.3:

       A cost may be considered reasonable if the nature of the goods or services
       acquired or applied … reflect the action that a prudent person would have taken
       under the circumstances…. Major considerations involved in the determination
       of the reasonableness of a cost are: whether or not the cost is of a type generally
       recognized as necessary for the operation of the institution or the performance of
       the sponsored agreement … Federal and State laws and regulations, and
       sponsored agreement terms and conditions; whether or not the individuals
       concerned acted with due prudence … and, the extent to which the actions taken
       with respect to the incurrence of the cost are consistent with established
       institutional policies and practices….

Pursuant to 2 CFR part 220, App. A, § C.4.a:

       A cost is allocable to a sponsored agreement if it is incurred solely to advance the
       work under the sponsored agreement; it benefits both the sponsored agreement
       and other work of the institution, in proportions that can be approximated through
       use of reasonable methods, or it is necessary to the overall operation of the
       institution and … is deemed to be assignable in part to sponsored projects.

Included in 2 CFR part 220, App. A, § F.6.b is specific guidance regarding the treatment of
charges for administrative and clerical expenses incurred within various departments of a college
or university: “The salaries of administrative and clerical staff should normally be treated as
F&A costs” (section F.6.b.2). In addition, “Items such as office supplies, postage, local
telephone costs, and memberships shall normally be treated as F&A costs” (section F.6.b.3).
The cost principles further state, “Costs of the institution’s membership in business, technical,
and professional organizations are allowable” (2 CFR part 220, App. A, § J.33.a).




                                                4
Federal regulations require recipients’ financial management systems to provide for accounting
records, including cost accounting records, that are supported by source documentation (45 CFR
§ 74.21(b)(7)).

UNALLOWABLE COSTS

Salary Costs

Of the 100 transactions in our sample of salary costs, one transaction was unallowable.
Specifically, the transaction, totaling $3,129, lacked supporting documentation to corroborate the
amount of effort charged to the award. 5

We determined that the unallowable salary transactions resulted in overcharges of $3,129 to
HHS awards and calculated applicable fringe benefits costs of $776 and F&A costs of $2,129.
We determined that unallowable salary costs totaled $6,034.

Nonsalary Costs

Of the 104 transactions in our sample of nonsalary costs, 19 transactions included unallowable
costs. Specifically:

      •    Fifteen transactions totaling $2,980 were for expenses such as office supplies and general
           use equipment that should have been treated as F&A costs and not charged directly to the
           awards. For example, one transaction totaling $915 was charged for a general use laptop
           and related accessories. 6 For another transaction, Jefferson charged $169 to an award for
           items such as binder clips, super glue, post-it notes and pens. 7

      •    Two transactions totaling $613 were unallowable for the grants to which they were
           charged. For example, one transaction totaling $170 was for an individual’s on-campus
           housing “in lieu of a consulting fee,” although no evidence of the consultation was
           provided. Additionally, the individual was never hired as a consultant on the project. 8

      •    Two transactions totaling $75 were for items that were not allowable costs pursuant to
           Federal regulations. For example, one transaction was for an individual’s membership in
           a professional organization. 9 Only costs for the institution’s memberships are allowable;
           therefore, the individual membership should not have been charged to the award.


5
    Award entitled Low Vision Depression Prevention Trial for Age Related Macular Degeneration.
6
    Award entitled Basic and Translational Research Program (BTRP) in Sickle Cell Disease.
7
    Award entitled Low Vision Depression Prevention Trial for Age Related Macular Degeneration.
8
    Award entitled Molecular Physiology of Voltage-gated Ion Channels.
9
    Award entitled Reducing Family Caregiver Upset with Disruptive Behavior.


                                                         5
Based on our sample results, we estimated that these unallowable nonsalary transactions resulted
in overcharges of $90,384 to HHS awards during our audit period: $58,328 in nonsalary costs,
and $32,056 in related F&A costs (see Appendix B). However, during our audit, Jefferson
transferred nonsalary costs totaling $3,316 to non-HHS funding sources. Accordingly, we
reduced the questioned nonsalary costs from $90,384 to $87,068.

CONTROLS NOT ALWAYS ADEQUATE

Jefferson’s oversight did not ensure that the costs it charged to HHS awards were allowable.
Jefferson’s Office of Research Administration generally did not review nonsalary transactions
less than $5,000. As a result, Jefferson did not always ensure that the departments and principal
investigators proposed transactions that fully complied with Federal regulations.

ESTIMATE OF UNALLOWABLE COSTS

Based on our sample results, we estimated that Jefferson charged unallowable transactions of
$96,418 to HHS awards. However, during our audit, Jefferson transferred $3,316 to non-Federal
funding sources. Accordingly, we reduced the total questioned costs to $93,102.

RECOMMENDATIONS

We recommend that Jefferson:

   •   refund $93,102 to the Federal Government and

   •   enhance oversight of charges to Federal awards to ensure compliance with Federal
       regulations.

THOMAS JEFFERSON UNIVERSITY COMMENTS

In written comments on our draft report, Jefferson did not concur with our first recommendation.
Jefferson stated that it had adequately documented the four salary transactions we questioned and
provided additional explanation and documentation with its comments. Jefferson concurred with
our finding for 13 of the nonsalary transactions and provided additional documentation and
explanations for the remaining 7 of the 20 nonsalary transactions questioned in our draft report.
Jefferson also described the action it had taken to address our second recommendation.

Jefferson’s comments are included as Appendix C. At Jefferson’s request, we redacted the
comments because they contained confidential information.

OFFICE OF INSPECTOR GENERAL RESPONSE

We reviewed Jefferson’s comments and additional documentation provided and allowed 3 of the
4 salary transactions and 1 of the 20 nonsalary transactions questioned in our draft report. We
revised our findings and related recommendation accordingly. Jefferson did not provide
complete support for the remaining transactions charged directly to Federal awards. Therefore,
we continue to find 19 nonsalary transactions unallowable.
                                                6
APPENDIXES
                                                                                        Page 1 of 2


              APPENDIX A: SAMPLE DESIGN AND METHODOLOGY—
                         NONSALARY TRANSACTIONS

POPULATION

The population consisted of nonsalary transactions that were charged directly to the Department
of Health and Human Services (HHS) awards, including Recovery Act awards, from fiscal years
(FY) 2009 and 2010. These transactions were for account codes that potentially included
administrative expenses.

SAMPLING FRAME

We received from Thomas Jefferson University two separate Excel files (one for each FY)
containing nonsalary transactions from account codes that potentially included administrative
expenses in FYs 2009 and 2010. We combined these two files into one Excel file containing
5,408 nonsalary transactions totaling $2,485,558. We identified and removed 746 transactions
totaling $324,035 that were not charged to HHS awards. We then removed 306 transactions of
less than $5. The remaining 4,356 transactions totaling $2,394,846 were our sampling frame.

SAMPLE UNIT

The sample unit was a transaction.

SAMPLE DESIGN

We used a stratified random sample containing three strata as follows:

                                                  Number of                Value of
       Stratum           Range                   Transactions            Transactions
          1    $5.00 through $100.00                1,915                   $82,249
          2    $100.01 through $25,000              2,437                 2,002,102
          3    $25,000.01 and above                     4                   310,495
                         Total                      4,356                $2,394,846

SAMPLE SIZE

We selected a sample of 104 transactions. The sample size by stratum was:

                          Stratum        Number of Sample Items
                             1                     30
                             2                     70
                             3                      4
                           Total                  104
                                                                                      Page 2 of 2


SOURCE OF RANDOM NUMBERS

We used the Office of Inspector General, Office of Audit Services (OAS), statistical software to
generate 30 random numbers for stratum 1 and 70 random numbers for stratum 2.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample frame. After generating the random numbers for strata 1
and 2, we selected the corresponding frame items. For stratum 3, we selected all the items.

ESTIMATION METHODOLOGY

We used the OAS statistical software to estimate the amount of unallowable nonsalary costs
claimed as direct costs. We also calculated the amount of unallowable facilities and
administrative costs associated with the estimated unallowable nonsalary costs.
                           APPENDIX B: SAMPLE RESULTS AND ESTIMATES—
                                    NONSALARY TRANSACTIONS

                    Sample Results: Unallowable and Partially Unallowable Transactions


                                                                                                                Value of F&A
                                                                                                                 Associated
                                                                         Number of           Value of               With
              Frame        Value of       Sample        Value of        Transactions        Transaction          Transaction
Stratum        Size         Frame          Size         Sample          With Errors           Errors               Errors 1
   1            1,915         $82,249         30           $1,108             10                   $302                $165

   2            2,437       2,002,102         70          105,448              9                  3,366               1,847

   3                 4        310,495           4         310,495              0                       0                   0

 Total          4,356     $2,394,846         104        $417,051              19                $3,668              $2,012


                                  Estimated Value of Unallowable Transactions
                              (Limits Calculated for a 90-Percent Confidence Interval)

                                                       Unallowable
                                                       Transactions                Unallowable F&A

                         Point estimate                   $136,453                        $74,847
                         Lower limit                        58,328                         32,056
                         Upper limit                       214,578                        117,639




       1
        We applied the applicable facilities and administrative (F&A) rate to each unallowable nonsalary transaction and
       added the amounts to arrive at the F&A associated with the unallowable nonsalary transactions.
                                                                                                                    Page 1 of 5
              APPENDIX C: THOMAS JEFFERSON UNIVERSITY COMMENTS


Jefferson® 
                                                                        Department of Finance


                                                                                    T 215.503.7570   F   215.503.9663


February 11, 2013

VIA ELECTRONIC MAIL Al\TD FEDERAL EXPRESS OVERNIGHT
Stephen Virbitsky, Regional h1spector for Audit Services
Department of Health and Human Services
Office oflnspector General
Office of Audit Services, Region III
Public Ledger Building, Suite 316
150 Independence Mall West
Philadelphia, PA 19106

Re:        Report Number: A-03-11-03300

Dear Mr. Virbitsky:

Thomas Jefferson University pmvides its written response to the U.S. Department of Health and
Human Services, Office of Inspector General ("OIG") November 29, 2012 draft report entitled
"Thomas Jefferson University Generally Claimed Selected Costs Charged Directly to
Department of Health and Human Services Awards in Accordance With Federal Regulations".

As instructed, our response is provided in paper copy and electronically in a PDF format. Our
response consists of the enclosed document titled "Thomas Jefferson University's Response to
OIG Draft Report", which references the attached Schedule A and exhibits containing supporting
documentation for those transactions Jefferson asserts are allowable. Jefferson requests that the
OIG maintain the confidentiality of our transaction-by-transaction discussion and supporting
documentation.

Jefferson appreciates the opportunity to provide a response. We would be happy to respond to
any questions that you may have or requests for additional documentation. We request the
opportunity to meet with you and your team as you consider the material we submitted prior to
the issuing of the final report.

Thank you.

Sincerely,



Steven McKenzie, M.D., Ph.D.                             Alfred C. Salvato
Former Vice President for Research                       Senior Vice President, Finance and Chief
                                                         Investment Officer

Enclosure

                    Redacted pages 2 through 6 at Jefferson's request.

1020 Walnut Street, 6th Floor, Philadelph ia, PA !9107
- --
THOI\1 AS TF.PFFRSON UNIVERSITY
                                           ·----------------------------------------------­
                                                                                            Page 2 of 5




             Thomas Jefferson University-Response to Draft Audit Report

Thomas Jefferson University ("Jefferson") submits these comments in response to the
November 29, 2012 US Department of Health and Human Services, Office of Inspector
General ("OIG") draft report entitled "Thomas jefferson University Generally Claimed
Selected Costs Charged Directly to Department of Health and Human Services Awards
in Accordance with Federal Regulations" (the "QIG Draft Report").
The OIG made two (2) recommendations in its OIG Draft Report. First, the OIG
recommends that Jefferson refund $124,009 to the Federal Government. Jefferson does not
concur with the amount of refund requested based on its rationale under Section I below.
Jefferson respectfully requests the OIG to recalculate the refund.
The OIG's second recommendation is that Jefferson enhance oversight of charges to the
Federal awards to ensure compliance with Federal regulations. Jefferson pays careful
attention to providing proper stewardship and financial management over Federal funds.
Jefferson has updated and implemented practices to enhance its processes and oversight to
ensure that costs charged to -HHS awards are allowable and that its departments and
principal investigators fully comply with Federal regulations as described in Section II
below.
                                         SECTION I

                         OIG RECOMMENDATION #1 

       JEFFERSON SHOULD REFUND $124,009 TO THE FEDERAL GOVERNMENT 


The OIG reviewed 100 salary transactions, finding 96 were allowable and 4 were either
unallowable or partially unallowable. The auditors also reviewed a sample of 104 non­
salary transactions, finding 84 were allowable and 20 were either unallowable or partially
unallowable. See Draft OIG Report at page 3.
Jefferson submits "Schedule A", which is attached, identifying the Salary and Non-Salary
transactions found to be unallowable or partially unallowable by the OIG. Schedule A
identifies: (1) the sample number, (2) the sample dollar amount, (3) the dollar amount
questioned, (4) the total related fringe benefits questioned, (5) the total related F&A costs
questioned, (6) the total questioned, (7) the sample dollars transferred to non-Federal
funding sources, (8) date of transfer to non-Federal funding source, (9) the reason the OIG
questioned the transaction, (10) Jefferson's brief response, and (11) the related exhibit for
documentation to support Jefferson's response. References throughout this document
refer to Schedule A, identifying the sample number and related exhibits, e.g. "Sample
29 /Exhibit 1".


                                              1
                                                                                     Page 3 of 5

                           Redacted at Jefferson's request.




                                     SECTION II 


                      OIG RECOMMENDATION #2 

     JEFFERSON SHOULD ENHANCE OVERSIGHT OF CHARGES TO FEDERAL 

      AWARDS TO ENSURE COMPLIANCE WITH FEDERAL REGULATIONS 


Jefferson consistently strives to provide the necessary oversight primarily through
its Office of Research Administration (ORA) to ensure that costs charged to HHS
awards are allowable and that its departments and principal investigators fully
comply with Federal regulations. Jefferson continuously evaluates its policies and
practices to enhance regulatory compliance.
                                                                      ~
Jefferson has a policy, which it provided to the OIG, directly addressing the issue of
charging administrative-type expenses to Federal awards. This policy titled
"Costing Guidelines for Sponsored Projects" provides specific guidance to principal
investigators, administrators and other personnel who may be involved in decisions
related to charging administrative expenses directly to Federal awards. This policy
is a highly detailed document, which provides background on the Circular A-21 and
Federal cost accounting standards. This policy has been published since 1997 and
has been revised as recently as 2012. The policy is readily available to principal
investigators and all other Jefferson staff. Jefferson has educated its research
community on the existence of its policies and the Federal standards.

Jefferson's ORA continues to review all salary transactions since such expenditures
represent the majority of our Federal spending. Additional oversight has been
added on some non-salary transactions under $5,000, which previously were solely
under principal investigator and department purview. For example, Jefferson's
ORA approves all travel and personal reimbursement transactions regardless of the
dollar amount.

In addition to following its policies and practices, Jefferson oversees compliance
through ORA's periodic monitoring and quality assurance reviews of transactions
charged to HHS awards. As a complement to ORA's oversight responsibilities, the
Internal Audit Plan includes periodic reviews of moderate to high risk Federal grant
                                      7
                                                                                  Page 4 of 5




management compliance issues. Further, Jefferson's ORA has the authority to
remove an unallowable cost, as defined by our costing policy, a deficit, or process
any transaction required to close an award or match final report. ORA informs
principal investigators and departments when such transactions are made.
Through this enhanced oversight, Jefferson believes that costs charged to HHS
awards are allowable and that its departments and principal investigators fully
comply with Federal regulations through the enforcement of appropriate policies
and procedures, monitoring and oversight.




                                     8
                                                                                                                                                                                                                                                                                         Page 5 of 5
THOMAS JEFFERSON UNIVERSITY
SCHEDULE A



 UNALLOWAIItf SAlARV.COSTS PER OIG REPORT A·03·11.03300_dateci 11/29/2012
                                                       Total Related                                     Sample Dollars
                               Sample      Dollar          Fringe        Total Related                   Transferred to     Date of Transfer
         Sample                Dollar     Amount          Benefits        F&ACosts          Total         Non-federal       to Non~federal                             Reason                                                                 TJU
        Number                Amount     Questioned      Questioned       Questioned      Questioned     fundin:t source    fund[1,\t_~urce                           Questioned                                                            Resaonse                             ExhibR

                                                                                                                                                                                                  Questioned amount is allowable. Additional supporting
                  29                2,538          145                                                         NA                 NA           Insufficient labor distribution documentation      documentation for the reconcilin& tr~~-~~ion{~ls~b:::.m"';t:.:t•:.:d:o.-1----"----1

                                                                                                                                                                                                  Questioned amount is allcwab!e. Additional supporting
                  36                3129         3129                                                          NA                 "A           tnsofficient labor d·stribution documental;on      documentat:on for the reconcllin,a transactiofl{ sj submitted.

                                                                                                                                                                                                  Questioned amount is allowable. Effort reports are
                                                                                                                                                                                                  certified for per;ods that differ from the Federal fiscal year.
                                                                                                                                                                                                  Additional analysis of certified effort and labor charged for
                  74               13.732          687                                                         NA                 ~A           ln~ufficient effort su"P Portina: Gocumentation    the effort re pDrting ~ eriod.s are subm;tted.

                                                                                                                                                                                                  Questioned amount is allowable. Additional supporting
                  88               22.060       10781                                                          NA                 NA           Insufficient labor distribution documen~tion       documentation for the reconciling transact
                                                                                                                                                                                                                                           ::;;:on
                                                                                                                                                                                                                                                :;:ni::J
                                                                                                                                                                                                                                                   :~ •si_..,s"'
                                                                                                                                                                                                                                                              ub::.mc;;<::;e
                                                                                                                                                                                                                                                                        tt :.:d"-,1-- ---"- - - 1
 Salary Costs                      4 ... ~~      IH~~              t.m           ~sqlq.        -~ 37

 iUNAltOYIO<atE NC"'·SAIJ\RV COSTS P&tOIG REPOR'f 'lti-lNWOO dol!il U 29/2012
                                                          Total Related                                  Sample ooltatS
                                 Sample        DoBar         Fl'inge      Total Related                  Transferred to Date of Transfer
                sample           Dollar       Amount        Benefits       F&ACosts         Total         Non-federal   to Non-federal                                   Reason                                                                 TJU
                                                          Q ~estloned                     Questioned_ __fundin&,so~c~ fun.2.!.!!L_source                                Q.\!.~iooed
                                                                                                                                                                                                               - , ­..~,.h:-t:::-h-e"=o::':IG~_:.:Res
                                                                                                                                                                                                                                                   ,., PQnse
                Numl>u          Amount     Questioned                     Quo tloned                                                                                                                                                                                             Exhibit
                   2                   10           10                                                              10 - ' 3/2si2o11           l:nailowablt:- as a d 'rectcharge                 1:­w
                                                                                                                                                                                                    :-:.- c-o-ncu
                   3                   11           11                                                              11     6/22n o11           Unallowable as a direct charg e                    Ouestione# amount is allowable as direct cha u !_e.
                   7                   14           14                                                              14     3/31/2011           Unallowable as a direct cha.rg~                    We concur with the OIG.
                  11                   22           22                                                              22     3/31i.fSU           Unallowable as a direct charge                      uestioned amount is allowable as dir~~&•;;       •:..
                                                                                                                                                                                                                                                      - -          --1'-----"----1
                  13                   26           26                                                              26     3/31/2011           Una!lowable as a direct ch~ ~e                     Questioned amount is allowable as direct cha r~te..
                  14                   28           28                                                              28     3 29 2011           _Unallowable as Clj direct s h~fie                 We concu r with the OIG.
                  15                   29           29                                                              29     3 28/201            Unallowable as a direct ch~J~ge                    Questioned amount is allowable as dirltct ch~ rg:~.
                  25                   60           26                                                              26 _]j~j)O V               ~ow_E.Ie     as a direct charRe                    We cone~.; r with the OIG.
                  26                   68           68                                                        NA                               Ut1allowable chargl!l to Federal grant             We concu r with the OIG.
                  27                   69           69                                                        NA                               Unaliowable e~s a direct cha_~Je_ _ _ _            Questioned amount is allowable as direct cha.ri.e .
                  31                  107            7                                                               7     8 18/2011           Unallowab e charr;e to Federal _ 9.rant           JWe concur with the OIG.
                  35                  119          119                                                             119     4/28 2011           Unallowable as a direct chaf'l!~                   We concvr with the OIG.
                  43                  170          170                                                        NA                               Unallowable for grant charged                      Quest.:oned amount is allowable as a direct charge.                               10
                  48                  245          245                                                        NA                               Unallowable for grant c~ J]led                     Que·;:o~ioned amount is allowable as a d irect charge.                            11
                  49                  245          245                                                             245     7}?,§/2011          Unallowable as a direct <;haral!!:                 We concur wit~-\ the OIG.
                  63                  379          169                                                             124      s s 2011           Una ll owabl ~ as a direct charge                  We concur with the OIG.
                                          f--­                                                                                                                                                    We concur with the OIG.
                  69                  443          443                                                            443      3/24/2011           Una\'lowable for grant charg_ed
                  73                  585          585                                                             585     3~£!~_11_           Unallawabte as a direct char~                      We concur with the OIG.
                                                                                                                            -~/~011            u~·ali~~abi;.as a direct char6fe                   We concur \Mth the OIG.
                                                                                                                     :~;- ?728fiou
                  78                  713          713
                  81                  915          915                                                                                         Unallowable as a direct cha_r.te                   We concur with the OIG.
  Non.Salary Costs                  & ~1                                                         5,917
                                                          -----r~:
                                                  3 913                                                             3 316
  Non-Salary Costs Projected                    ~i,,                                                                 nSJ
  Total Unallowable

  Total Unallowable Net of
  Transfers Completed




                                                                                                                               Page 1 of 1
